OIG Audit Report 00-13
Office of Justice Programs State Criminal Alien Assistance Grant Program
Report No. 00-13May 2000Office of the Inspector General
EXECUTIVE SUMMARY
The Office of Justice Programs (OJP) provides grants to state and local governments to help defray the cost of incarcerating undocumented criminal aliens convicted of state or local felonies.  The grants were authorized by the Violent Crime Control and Law Enforcement Act of 1994 and are administered by OJP under the State Criminal Alien Assistance Program (SCAAP).  The OJP made payments totaling about $495 million to 146 state and local government applicants for FY 1996 and $492 million to 270 applicants for FY 1997.  For FY 1998, the Congress appropriated $585 million for SCAAP grant awards.
We reviewed five FY 1996 SCAAP grants to determine whether the compensation paid to applicants was appropriate based on incarceration costs and the number of undocumented criminal aliens.  The five grantees were the states of California, Texas, New York, Florida, and Illinois, which collectively received 76 percent of the FY 1996 SCAAP funding.  We found that unallowable inmate costs and ineligible inmates were included in the grant applications.  We also reviewed OJP's compensation methodologies for both FY 1996 and FY 1997 and concluded that program guidelines need improvement.  Specifically, for FY 1996:
We found that OJP over-compensated the states of California, Texas, New York, Florida, and Illinois in the aggregate approximately $19.3 million for unallowable inmate costs and ineligible inmates; and
We found that OJP's methodology for compensating applicants was over-inclusive and should be improved.  We estimate that OJP overpaid the five state applicants we reviewed for at least 1,760 inmates whose immigration status was "unknown."
The conditions previously identified are detailed in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology are contained in Appendix I.